HHS/OIG, Audit - "Medicaid Payments for Services Provided to
Beneficiaries With Concurrent Eligibility in Missouri and Kansas for July 1,
2005, Through June 30, 2006 - Missouri Department of Social Services,"
(A-07-07-04078)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Payments for Services
Provided to Beneficiaries With Concurrent Eligibility in Missouri and Kansas for
July 1, 2005, Through June 30, 2006 - Missouri Department of Social Services,"
(A-07-07-04078)
February 14, 2008
Complete Text of Report is available in PDF format (1.2 mb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether the
Missouri Department of Social Services (the State agency) made payments on behalf of beneficiaries who should not
have been Medicaid-eligible due to their eligibility in Kansas.  For the period
of July 1, 2005, through June 30, 2006, we estimate that the State agency paid
$82,602 ($50,994 Federal share) on behalf of beneficiaries who should not have
been eligible due to their Medicaid eligibility in Kansas.  We attribute the
Medicaid payments made on behalf of beneficiaries who were not eligible in
Missouri to the insufficient sharing of eligibility data between the State
agency and Kansass Medicaid agency.
We recommend that the State agency work
with the Kansas Medicaid agency to share available Medicaid eligibility
information for use in (1) determining accurate beneficiary eligibility status
and (2) reducing the amount of payments, estimated to be $82,602 ($50,994 Federal
share), made on behalf of beneficiaries residing in Kansas.  The State agency
concurred with our first recommendation but not our second recommendation.